HHS/OIG-AUDIT--Transportation Services for Montana's Medicaid Program (A-06-96-00073)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan: Transportation Services
for Montana's Medicaid Program," (A-06-96-00073)
December 4, 1996
Complete
Text of Report is available in PDF format (634 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report on an audit of the Transportation Services for Montana's Medicaid
Program for State Fiscal Years (FY) 1994 and 1995 was conducted by the Montana
Legislative Auditor (MLA). The objective of the review was to determine if the
Department of Public Health and Human Services' (Department) controls in place
ensured that the payments for transportation services were necessary and reasonable.
This work was conducted as part of our partnership efforts with State Auditors
to expand audit coverage of the Medicaid program. As part of the review, the Office
of Audit Services assisted the MLA by providing technical support through the Medicaid
Partnership Plan. In addition, we have performed sufficient work to satisfy ourselves
that the attached MLA report can be relied upon and used by the Health Care Financing
Administration in meeting its program oversight responsibilities.
The MLA determined that the controls in place appear effective to assure that
the payments for transportation services are necessary and reasonable but several
improvements were identified which could further strengthen the control system.
The MLA recommended that the Department strengthen controls by (1) clarifying
program monitoring contract requirements, (2) clearly delineating county program
involvement and, (3) developing a method of recipient reimbursement in compliance
with all statutes and regulations. The Department concurs with the recommendations.
As we do with all audit reports developed by nonfederal auditors, we have provided
a listing of the coded recommendations for use in working with the State to resolve
findings and recommendations through our stewardship report.
We plan to share this report with other States to encourage their participation
in our partnership efforts.